   May 12, 2003




Acquisition


Allegations of Impropriety in the
Selection Process at the Office of
the Director, Defense Research
and Engineering
(D-2003-089)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AFRL                  Air Force Research Laboratory
CHSSI                 Common High Performance Computing Software Support
                         Initiative
HPCAP                 High Performance Computing Advisory Panel
HPCMP                 High Performance Computing Modernization Program
S&T                   Science and Technology
T&E                   Test and Evaluation
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 222024704




                                                                           May 12,2003
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISlTION,
                 TECHNOLOGY. AND LOGISTICS
               ASSISTANT SECI~ETARYOF THE AIRFORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               AUDITOR G E N E W OF THE NAVY

                                        ..
SUBJECT: Rmort on Alleeations of Imurourietv in the Selection Process at the Office
         ofihe DirectorrDefense Research &d Engineering (Report
         NO.D-2003-089)

        We are providing this report for review and comment. This audit was performed
in response to a request h m the Deputy Under Secretary of Defense (Science and
Technology) and to allegations made to the Defense Hotline. We considered
management comments on a draft of this report when preparing the final report.
       DoD Directive 7650.3 requires that all issues be resolved promptly. The Director,
Defense Research and Engineering comments were partially responsive in that they
recognized the need for written guidance. We request additional comments to the
recommendation in the report that a formal written policy be issued. Therefore, we
request that the Director, Defense Research and Engineering provide comments to the
recommendation by July 11,2003.
       Ifpossible, please provide management comments in electronic format (Adobe
Acrobat file only) to Audam@dodig.osd.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the s.- Questions should be directed
to Mr. Bruce Burton at (703) 604-9071 (DSN 664-9071) or Mr. Michael Simpson at
(703) 604-8972 (DSN 664-8972). See Appendix C for the report distribution. The team
members are listed inside the back cover.



                                         3       L         +        G
                                    %avid K. Steensma
                                 Deputy Assistant Inspector General
                                          for Auditing
         Ofice of the Inspector General of the Department of Defense
Report No. D-2003-089                                                       May 12,2003
  (Project No. D2002AB-0176)


 Allegations of Impropriety in the Selection Process at the Office of the
              Director, Defense Research and Engineering

                                Executive Summary

Who Should Read This Report and Why? Scientists and engineers who use high
performance computing tools should read this report to obtain information about the
selection process used by the High Performance Computing Modernization Office to
award funding to application software development projects.

Background. The High Performance Computing Modernization Program provides
supercomputer services, high-speed network communications, and computational science
expertise that enables the Defense laboratories and test centers to conduct a wide range of
focused research, development, and test activities. The High Performance Computing
Modernization Program’s annual budget is approximately $250 million. This report is
concerned with software development projects valued at up to $1.5 million each over a
3-year period. The Deputy Under Secretary of Defense (Science and Technology)
requested that the Office of the Inspector General of the Department of Defense evaluate
allegations in a letter that discussed potential conflict of interest in evaluating and
selecting software projects that will be funded by the High Performance Computing
Modernization Office. A second, anonymous letter that contained similar allegations was
sent to the Department of Defense Hotline. This report addresses the allegations in both
letters.

Results. The audit did not substantiate the allegations that conflicts of interest led to
inappropriate evaluations and selections by the High Performance Computing
Modernization Office of software development projects to fund. However, confusion
caused by the lack of a written policy on evaluation procedures contributed to
inconsistent interpretations by the different Military Department members of the selection
panel. Written policy is needed that provides clear selection criteria. In addition, issues
to be addressed should include: that technical evaluators should be government
employees, Service members should rank only their own proposals, and persons whose
organizations have a vested interest in the selection should recuse themselves from
providing even informal ratings. See the Finding section of the report for detailed
information on the recommendation.

Management Comments and Audit Response The Director, Defense Research and
Engineering concurred with the report findings that the allegations were not substantiated.
The Director also said that our recommendations to reduce or eliminate inconsistent
interpretations of procedures and to reduce any appearance of conflict of interest were
incorporated into subsequent calls for proposals during 2002 and would be included in all
future calls for project proposals. On the second point of our recommendation, the
Director issued memorandums advising the High Performance Computing Advisory
Panel members to rank only those proposals received &om their Service or agency.
Comments were partially responsive in that they recognized the need for written
guidance, however the requirements are placed only in the data call instructions. A
separate formal policy identifying the specific procedures for all future data calls needs to
be issued to avoid the problems identified during the audit. Thexefore we request
additional comments on the issuance of a separate formal policy. We request that the
Director, Defense Research and Engineering comment on this report by July 11,2003.
See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                              ..
                                              11
Table of Contents

Executive Summary                                                    i

Background                                                           1

Objectives                                                           2

Finding
     Evaluation Process for Funding Software Development Projects    3

Appendixes
     A. Scope and Methodology                                        7
     B. Summary of Allegations and Audit Results                     8
     C. Report Distribution                                         10

Management Comments
     Defense Research and Engineering                               13
Background
    The audit was performed in response to a request from the Deputy Under
    Secretary of Defense (Science and Technology) and to allegations made to the
    Defense Hotline. See Appendix B for a summary of allegations and audit results.

    The High Performance Computing Modernization Program (HPCMP). The
    HPCMP mission is to deliver world-class, high performance computational
    capability to the DoD science and technology (S&T) and test and evaluation
    (T&E) communities, facilitating the rapid insertion of advanced technology into
    superior wariighting capabilities. HPCMP is under the cognizance of the Deputy
    Under Secretary of Defense (Science and Technology) within the Office of the
    Director, Defense Research and Engineering, and has an annual budget of
    approximately $250 million.

    HPCMP is made up of three components: High Performance Computing Shared
    Resource Centers, Networking, and Software Application Support. The
    allegations under review involve the Common High Performance Computing
    Software Support Initiative (CHSSI) segment of the Software Application Support
    component.

    CHSSI is an application software development program that provides DoD
    computational scientists and engineers with technical codes to best use computing
    systems. Under CHSSI, the HPCMP management issues annual calls for
    proposals in specific areas of science. The Service laboratories and several DoD
    agencies have the opportunity to submit proposals to HPCMP. CHSSI proposals
    selected for HPCMP funding receive approximately $500 thousand per year for
    3 years. Six proposals were selected for funding for FY 2002.

    A joint Navy/Air Force project, started in FY 2000, for the development of
    software code for simulation of airflow was cancelled in September 2001 because
    of technical and managerial problems. Differences in the Services cultures and
    language used to write the code led to the termination of the project. Both
    Services submitted proposals to develop similar code during the FY 2002
    selection process. The Air Force proposal was selected for award of funding. The
    Navy proposal was not selected.

    Allegations. The allegations of conflict of interest were based on the fact that the
    Software Application Support Project Manager of @CMP was on assignment
    from the Air Force Research Laboratory (AFRL) at Edwards Air Force Base,
    California, and may have inappropriately favored the Air Force in the selection
    process. A second allegation involved a lack of impartiality in scoring a proposal.



                                          1
Objectives

    The audit objective was to determine whether the allegations of impropriety in the
    solicitation and award of a new project funded by the High Performance
    Computing Modernization Program were valid. Specifically, we reviewed the
    procedures used for evaluating and selecting software proposals for funding, and
    whether the selecting officials had conflicts of interest during the selection
    process.




                                        2
             Evaluation Process for Funding Software
                Development Projects
             Individuals in the scientific community were confused about the
             procedures used by the HPCMP personnel to evaluate and award funding
             to software development projects for FY 2002. That confusion occurred
             because the Deputy Under Secretary of Defense (Science and Technology)
             did not issue written policy and procedures on the evaluation and selection
             of proposals to fund software development projects. As a result, Military
             Department members of the selection panel used different procedures for
             ranking and submitting proposals.


Existing Procedures for the Evaluation and Award Process
     Fy 2002 Evaluation Process. For FY 2002, the HPCMP personnel analyzed the
     CHSSI proposals for technical merit and for mission relevance. Mission
     relevance is the applicability and importance of the work to the Services and
     Defense agencies missions. Technical merit was 80 percent of the score and
     mission relevance was 20 percent of the score. A panel of experts outside of DoD
     evaluated the technical merit of the proposals. The panel was comprised of three
     experts, one each from the National Aeronautics and Space Administration; F'ratt
     & Whitney, a division of United Technologies Corporation; and the Boeing
     Company.

     A panel of DoD representatives called the High Performance Computing Advisory
     Panel (I-IPCAP) evaluated the proposals for mission relevance.' The HPcm
     members were issued copies of all 27 proposals submitted for FY 2002. They
     reviewed all of the proposals for mission relevance and determined which
     proposals would be the most beneficial to DoD. The HPCAP members assigned
     points to the proposals that they thought were worth pursuing. Each member was
     to allocate up to a total of 100 points.

     The HPCMP management advised us that they chose not to issue guidance to the
     Military Department panel members explaining how to allocate points to the


     * HPCAP consists of 12 members:       a S&T representative from each Service; a T&E representative
      from each Service; and one representative each from the Missile Defense Agency; the Defense
      Advanced Research Projects Agency; the Defense Threat ReductionAgency; the Office of the
      Director of O p e r a t i d Test & Evalnatiorq the Assistant Secretary of Defense for Command,
      Control, Communication and Intelligence; and the Deputy Under Secretruy of Defense (Science
      and Technology).


                                                3
    proposals. The Army and the Air Force HPCAP members selected a few of their
    best proposals, and spread the 100 points over those proposals. That allowed
    them to assign a significant amount of points to each proposal. Also, the Army
    and the Air Force submitted two ratings each, one from the S&T representative
    and one from the T&E representative, doubling their point total to 200. However,
    the Navy members assigned at least 5 points to each of their 13proposals. The
    highest score for a Navy proposal was 11. The Navy T&E representative did not
    submit a separate scorecard. Those factors put the Navy proposals at a
    disadvantage when the votes were tallied and the Navy selectionswere compared
    to the Army and Air Force selections.

    All three Service HPCAP members that we interviewed voted for their own
    Service proposals or for ones that would benefit their Service. The Military
    Department members allocated the points differently to maximize the number of
    their Department’s proposals being selected.

    Current Written Policy. The procedures used by HPCMP for the CHSSI
    evaluation and award process are not well defined. The procedures are only
    documented in internal and annual call memorandums, and a few briefing charts.
    We believe that writing defined procedures and issuing them to the participating
    laboratories would alleviate confusion and ensure equality in the process. Written
    procedures are especially important since almost the entire staff of HPCMP is
    detailed from other organizations on a rotating basis. Written policy would also
    be important to establish the roles of unofficial advisors especially when those
    advisors have an interest in funding awards. The lack of written policy
    contributed to concerns expressed in the Hotline allegation and further outlined in
    the Deputy Under Secretary Defense (Science and Technology) request. Each of
    the two Hotline issues and the results of our review are explained in Appendix B.

Ongoing Changes to the Evaluation and Award Process
    Recalculation of the FY 2002 Evaluations. In December 2001 the Navy S&T
    HPCAP principal raised the issue of a misunderstanding of the methodology used
    during the FY 2002 selection process. Because of the misunderstanding, HPCMP
    reevaluated the rankings. HPCMP officials described the reevaluation as taking
    the rankings previously provided by the HPCAP representatives and considering
    only the points allocated to that representative’s Service proposals. That
    reevaluation led to the selection of an additional Naval project, but not the one
    that was the subject of the Hotline allegations.

    Fnture Mission Relevance Rankings. The process used by HPMCP for
    selection of the FY 2002 CHSSI proposals was not clearly established. That led



                                         4
    to different interpretations by the Service representatives as to how to ranlc the
    proposals for mission relevance.

    HPCMP officials advised us that the process was revised for the FY 2003
    selections in order to avoid the issues raised with the FY 2002 methodology, For
    FY 2003, the HPCAP members rated the mission relevance of only their own
    Service proposals before they were submitted for the technical reviews. The
    HPCAP members had to attach at least one point to each proposal that was
    submitted in order for that proposal to receive a technical review by the outside
    team of evaluators. In addition, according to an Army HPCAP member, the
    HPCAP representatives did not know how many proposals were being submitted
    by the other Services. By eliminating this knowledge, it reduced opportunities for
    the Military Departments to inappropriately score proposals. In addition, each
    Service was limited to one ranking as opposed to separate ones f?om the S&T and
    T&E representatives.

    As part of an effort to downsize the Office of the Under Secretary of Defense for
    Acquisition, Technology, and Logistics, the funding for HPCMF' will be
    transferred to the Air Force. When the transfer between organizations occurs, it
    will be important to have well written evaluation and selection procedures already
    in place to aid the Air Force in their new oversight role.

Recommendation, Management Comments, and Audit
  Response
    1. We recommend that the Director, Defense Research and Engineering
    issue written evaluation and award policy to defme and establish the process
    used to select and award funding to Common High Performance Computing
    Software Support Initiative proposals. Issues that need to be addressed in
    the policy are:

           a Technical evaluators should be from within the government in
    order to avoid potential competitive advantages for one contractor over
    another.

          b. HPCAP members should rank only their own Service or agency
    proposals, as was done in the FY 2003 selection process.

           c. Technical experts should not participate, nor provide technical
    advice, in the review and selection of proposals that they or their offices have
    submitted or will participate in performing if selected.




                                           5
Management Comments. The Director of Defense Research and Engineering
concurred with the report findings that the allegations were not substantiated. The
Director of Defense Research and Engineering also said that our
recommendations to reduce or eliminate inconsistent interpretations of procedures
and to reduce any appearance of conflict of interest were incorporated into the
FY 2003 Call for CHSSI Project FYoposals, dated May 23,2002, and a subsequent
call for proposals, dated December 13,2002. The Director said that the refined
policies and the process would be included in all future c d s for project proposals.
The Director stated that the evaluation plans for each call for CHSSI project
proposals, beginning with the call of May 23,2002, incorporate the first and third
points of our recommendation. On the second point of our recommendation, the
Director issued memorandums advising HPCAP members to rank only those
proposals received h m their Service or agency.

Audit Response. The Director’s comments were partially responsive in that they
recognized the need for written guidance, however the requirements araplaced
only in the data call instructions. A separate formal policy identifying the specific
procedures for all future data calls needs to be issued to avoid the problems
identified during the audit. Therefore, we ask that the Director provide additional
comments on the issuance of a separate formal policy.




                                      6
Appendix A. Scope and Methodology
    We performed audit work to examine allegations made in two letters of January
    2002. A signed letter was sent to the Director, Defense Research and
    Engineering, and a second letter, which contained similar allegations, was sent to
    Defense Hotline. Allegations were made that individuals involved in the
    evaluation and selection process for FY 2002 were biased because of conflicts of
    interest. The core of the allegations is the procedure used by the High
    Performance Computing Modernization Office to solicit, evaluate, and select
    software development projects for funding. We reviewed the existing policy used
    for the evaluation and selection process. We also reviewed documentation
    specific to the FY 2002 process. In particular, we reviewed documentation of the
    Services’ rankings for mission relevance. We discussed the allegations with the
    persons who wrote the letters. We also interviewed personnel h m the High
    Performance Computing Modernization Office, Assistant Secretary of the Army
    (Acquisition, Logistics, and Technology), Army Aviation and Missile Command,
    Office of Naval Research, Naval Research Laboratory, Air Force Research
    Laboratories in Virginia and California, and the Arnold Engineering Development
    Center.

    We performed this audit h m June 2002 through January 2003 in accordance with
    generally accepted government auditing standards. We did not review the
    management control program because the audit scope was limited to the
    allegations of conflicts of interest.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-RiskArea. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DOD Systems Modernization high-risk area.


Prior Coverage
    No prior coverage has been conducted on the HPCMP during the last 5 years.




                                        7
Appendix B. Summary of Allegations and Audit
            Results
   The audit was conducted in response to allegations made to the Defense Hotline.
   The following is a summary of the allegations and the specific results of each
   allegation. We did not substantiate either allegation, but did find other problems
   that led to the finding in our report.

   Allegation No. 1: The Software Application Support Project Manager of
   HPCMP had a conflict of interest because of ties with the Air Force Research
   Laboratory (AFRL) at Edwards Air Force Base, California. Because of that
   conflict of interest, funding was awarded to an AFRL project that would not have
   been selected on its own merit.

           Audit Results: The allegation was not substantiated. Air Force officials
   confirmed that the project manager was on assignment h m AFRL at Edwards
   Air Force Base to be the project manager of the HPCMP CHSSI Program, among
   other programs. However there is no evidence to establish that the project
   manager used that position to unfairly award funding to an unworthy
   AFRL-Edwards project.

   During the N 2002 CHSSI award process, the project manager received the
   proposals and reviewed them for format, content, and page limits. HPCMP then
   sent the proposals to the technical evaluators and the HPCAP members for
   technical reviews and mission relevance reviews, respectively. The project
   manager did not perform any of those technical or mission relevance reviews.
   The project manager’s role was to manage the process, not perform the
   evaluations.

   In October 2001, the reviewers’ scores were compiled using the 80 percent to
   20 percent ratio discussed on page 3 of the Finding section of this report. The
   project manager compiled a list of the top 10 proposals with funding
   recommended for those with the highest scores. The HPCMP Program Director
   approved the list and the funding.

   Allegation No. 2: One member of the evaluation panel was allowed to review
   and score his own proposal. That member’s influence was rewarded with funding
   for his proposal.

          Audit Results: The allegation was not substantiated. The Technical
   Director of the Applied Technology Division of the Arnold Engineering


                                        8
Development Center was the leading expat for FY 2002 proposals on
Computation Technology. The technical director described his role as a technical
advisor for the project manager and HPCMP. The technical director was also part
of a team fiom Amold Engineering Development Center that submitted a proposal
to HF'CMP for the FY 2002 award process.

The HPCAP members were asked to provide mission relevance ratings for the
27 proposals. The allegation arose because the Air Force HPCAP S&T advisor
asked for the opinions of Air Force experts, including the technical director, as to
the mission relevance of the 27 proposals. The project manager advised us that
there is no HPCMF' policy that prohibits the Air Force HPCAP S&T advisor &om
seeking the opinions of experts in the field.

Air Force officials stated that the technical director reviewed the proposals and
submitted his unofficial scores to the HF'CAF' S&T advisor for further
consideration. The technical director included his proposal in the scoring. The
HPCAP S&T advisor considered the technical director's scores as well as the
scores of several other experts, which were compiled in preparation of the official
position for the Air Force S&T and T&E communities. The technical director
was not an HF'CAP member and did not submit an official score on either
technical merit or mission relevance. Although the scoring did not officially
impact the selection process, the unofficial scoring did give the appearance of
favoritism and impropriety in the selection process. As a result, the issue was
addressed in the recommendation.




                                     9
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Research and Engineering
   Deputy Under Secretary of Defense (Science and Technology)
    Director, High Performance Computing Modernization Program
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          10
Congressional Committees and Subcommittees,
 Chairman and Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        11
Defense Research and Engineering Comments
                                            Final Report
                                            Reference




                                            Attachments
                                            omitted
                                            because of
                                            length.
                                            Copies will
                                            be provided
                                            upon
                                            request.




                     13
Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Mary L. Ugone
Bruce A. Burton
Michael E. Simpson
Thomas J. Hilliard
Calvin O. King
Patrick M. Sampson
Ann A. Ferrante
